TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                           Office of Inspections and Evaluations




                                       RECOVERY ACT

                  Review of the Internal Revenue Service’s
                  American Recovery and Reinvestment Act
                   Fund Expenditures for Fiscal Year 2011



                                        August 28, 2013

                            Reference Number: 2013-IE-R009




        This report has cleared the Treasury Inspector General for Tax Administration disclosure
          review process and information determined to be restricted from public release has
                                   been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.treasury.gov/tigta
                                       DEPARTMENT OF THE TREASURY
                                             WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 28, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                          R. David Holmgren
                                Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                       Final Inspection Report – Review of the Internal Revenue Service’s
                                American Recovery and Reinvestment Act Fund Expenditures for
                                Fiscal Year 2011 (IE-13-005-A)


 This report presents the results of our inspection to verify the accuracy, timeliness, and reporting
 of the payment of invoices by the Internal Revenue Service (IRS) for the American Recovery
 and Reinvestment Act of 20091 (Recovery Act). Our inspection included invoices paid during
 the period October 1, 2010, through September 30, 2011. This is the fourth in a series of
 inspections regarding compliance with the Office of Management and Budget (OMB) guidance
 for implementation of the Recovery Act.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS Recovery
 Act programs. This inspection was conducted using Recovery Act funds.

 Synopsis
 Our inspection showed that the IRS was in compliance with the OMB’s Recovery Act
 implementation guidance for the Recovery Act expenditures from October 1, 2010, through
 September 30, 2011. The IRS generally executed adequate internal controls to ensure timely and
 accurate reporting.
 During the period of our inspection, the IRS paid approximately $22 million2 to vendors for
 Recovery Act expenses. Discounts were offered for the prompt payment of invoices, and the


 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
 2
     The exact amount of payment for these invoices was $21,932,552.41.
                     Review of the Internal Revenue Service’s
                   American Recovery and Reinvestment Act Fund
                         Expenditures for Fiscal Year 2011



IRS obtained approximately $123,000 of the approximately $214,000 available.3 The IRS is not
required to obtain all discounts offered by vendors. Due to the limited scope of our inspection,
we did not determine the IRS’s ability or inability to obtain the offered discounts.

Response
The IRS agreed to the observations in the report. Management’s complete response to the draft
report is included as Appendix IV.
If you have any questions, please contact me at (202) 927-7048 or Kevin P. Riley, Director,
Office of Inspections and Evaluations, at (972) 249- 8355.




3
 The actual amount of available discounts was $214,277.04. The IRS took $123,242.57 (57.5 percent) of the
available discounts.
                                                                                                        Page 2
                           Review of the Internal Revenue Service’s
                         American Recovery and Reinvestment Act Fund
                               Expenditures for Fiscal Year 2011




                                            Table of Contents

Background ......................................................................................................... .Page 1

Results of Inspection ......................................................................................... Page 3
          Recovery Act Expenditures Were Reported Accurately and Timely ........... Page 3
          The Internal Revenue Service Did Not Take All Available Discounts ........ Page 3
          Financial Reports Complied With the Office of Management and
          Budget’s Implementing Guidance and Recovery Act Requirements ........... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 4
          Appendix II – Major Contributors to This Report ........................................ Page 6
          Appendix III – Report Distribution List ....................................................... Page 7
          Appendix IV – Management’s Response to the Draft Report ...................... Page 8
        Review of the Internal Revenue Service’s
      American Recovery and Reinvestment Act Fund
            Expenditures for Fiscal Year 2011



                   Abbreviations

IRS          Internal Revenue Service
OMB          Office of Management and Budget
                        Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                            Expenditures for Fiscal Year 2011




                                             Background

This is the fourth in a series of inspections regarding compliance with the Office of Management
and Budget (OMB) guidance for implementation of the American Recovery and Reinvestment
Act of 2009 (Recovery Act).1 Enacted on February 17, 2009, this legislation allocated
$787 billion over 10 years in order to stimulate the national economy. The Recovery Act
contains both spending and tax provisions.
The Internal Revenue Service (IRS) is responsible for administering more than 502 tax law
provisions contained in the Recovery Act. In April 2009, the IRS received $202 million of its
appropriation of Recovery Act funds.3 These funds are required to implement the necessary tax
changes resulting from provisions of the Recovery Act. The changes included reprogramming
the IRS computer systems, updating related tax forms and publications, and providing customer
service to assist taxpayers in obtaining their Recovery Act benefits. As of September 30, 2011,
the IRS had obligated more than $201 million, with disbursements exceeding $198 million.
One of the stated goals of the Recovery Act is to “foster unprecedented levels of accountability
and transparency in government spending.” The Recovery Accountability and Transparency
Board (Recovery Board)4 provides transparency to the public concerning Recovery Act funds.
One way the Recovery Board accomplishes this goal is by publishing Federal agencies’ use of
Recovery funds weekly.
The OMB5 issued guidance documents6 that outlined steps for implementing the Recovery Act
and clarified the requirements for processing procurements. Federal agencies are required to
report to the Recovery Board, on a weekly basis, all cumulative Recovery Act obligations and

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  This number could be as high as 56, depending on how the law is interpreted.
3
  This appropriation included $80 million for Fiscal Years 2009 through 2010 to implement the Health Coverage
Tax Credit program. The IRS also received $123 million for supporting tax provision changes cited in the Recovery
Act. The Department of the Treasury retained $1 million for administrative oversight, resulting in the IRS receiving
$202 million.
4
  The Recovery Board was created by the Recovery Act with two goals: to provide transparency of Recovery Act
funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General from various Federal
agencies serve with the Chairman. The Recovery Board issues quarterly and annual reports to the President and
Congress and, if necessary, “flash reports” on matters that require immediate attention.
5
  The OMB has primary responsibility for developing Governmentwide rules and procedures to ensure that
Recovery Act funds are awarded and distributed in a prompt and fair manner, that use of funds is transparent to the
public, and that steps are taken to mitigate fraud, waste, and abuse.
6
  OMB, M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(Feb. 18, 2009); M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act of 2009
(April 3, 2009); and M-10-34, Updated Guidance on the American Recovery and Reinvestment Act (Sept. 24, 2010).
                                                                                                            Page 1
                        Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                            Expenditures for Fiscal Year 2011



gross outlays (expenditures)7 in a standard reporting format. They also must use separate
Treasury Appropriation Fund Symbols8 to track and report Recovery Act obligations and
disbursements.
In performing this review during the period March through June 2013, we obtained relevant data
and information from personnel at the IRS National Headquarters in Washington, D.C., and the
Beckley Finance Center in Beckley, West Virginia. The review included Recovery Act invoices
submitted to the IRS by vendors for payment during the period October 1, 2010, through
September 30, 2011.
This inspection was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on the
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




7
  Total obligations equal the sum of financial commitments and expenditures. Total outlays consist of expenditures
only.
8
  The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
                                                                                                              Page 2
                          Review of the Internal Revenue Service’s
                        American Recovery and Reinvestment Act Fund
                              Expenditures for Fiscal Year 2011



                                     Results of Inspection

Recovery Act Expenditures Were Reported Accurately and Timely
The IRS generally executed adequate internal controls to ensure timely and accurate reporting
for the Recovery Act expenditures during the review period. The IRS has adequate, documented
operating procedures for ensuring that Recovery Act procedures are properly and timely
reported.
The Internal Revenue Service Did Not Take All Available Discounts
The IRS obtained approximately $123,000 (57.5 percent) of the $214,000 in total discounts
offered by vendors. Even though the Prompt Payment Act9 does not require that Federal
agencies take all available discounts that are offered, taking the discounts provides the IRS with
the opportunity to make better use of these funds. Due to the limited scope of our inspection, we
did not determine the IRS’s ability or inability to obtain the offered discounts.
Financial Reports Complied With the Office of Management and
Budget’s Implementing Guidance and Recovery Act Requirements
The IRS was in general compliance with OMB’s guidance and Recovery Act requirements by:
          Submitting all 52 weekly reports of its cumulative Recovery Act obligations and gross
           outlays in the prescribed format;
          Using separate Treasury Appropriation Fund Symbols for its two Recovery Act funds;
           and
          Ensuring Recovery Act expenditures were timely forwarded to the Department of the
           Treasury for posting to Recovery.gov.




9
    Pub. L. No. 97-177, 96 Stat. 85 (1982)(codified as amended at 31 US.C. § 3901 et seq.).
                                                                                              Page 3
                        Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                            Expenditures for Fiscal Year 2011



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to verify the accuracy, timeliness, and reporting of the
payment of invoices for the IRS’s Recovery Act1 procurement expenses for the period
October 1, 2010, through September 30, 2011 (Fiscal Year 2011). We reviewed all Recovery
Act invoices that the IRS paid during the period.
To accomplish this objective, we:
I.      Documented procedures used to identify, record, and report Recovery Act expenditures,
        including internal controls.
        A. Interviewed personnel in the Budget Execution Office in the IRS’s National
           Headquarters to identify the reporting process.
        B. Interviewed personnel in the Beckley Finance Center in Beckley, West Virginia, to
           identify and document the invoice payment process.
        C. Reviewed the Financial and Activity Reports for the period under inspection, which
           are posted on Recovery.gov.
II.     Determined whether Recovery Act procurement expenditures that the IRS reported were
        accurate and substantiated by complete and reliable supporting documentation.
        A. Identified all Recovery Act expenditures for the period October 1, 2010, through
           September 30, 2011.
        B. Traced Recovery Act procurement expenditures to available supporting
           documentation, including invoices, receiving reports, and check payment records.
        C. Verified the mathematical accuracy of expenditures and supporting documentation.
        D. Compared Recovery Act expenditures from the Weekly Financial Report on
           Recovery.gov to the amounts the IRS recorded in the Integrated Financial System.2




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated funds
received by the IRS.
                                                                                                           Page 4
                        Review of the Internal Revenue Service’s
                      American Recovery and Reinvestment Act Fund
                            Expenditures for Fiscal Year 2011



         E. Determined if the IRS used separate Treasury Appropriation Fund Symbols3 for its
            two Recovery Act funds:
             1. Treasury Appropriation Fund Symbol 20-0129 2009/2011 for Administrative
                Expense – Recovery Act.
             2. Treasury Appropriation Fund Symbol 20-0934 2009/2011 for Health Insurance
                Tax Credit Administration – Recovery Act.
         F. Reconciled disbursements from the Integrated Finance System to the Total Gross
            Outlays in the Financial and Activity Report.
         G. Obtained Status of Available Funds Reports from the IRS.
         H. Reconciled the IRS Recovery Act weekly reports provided for the review period to
            the expenditures posted on Recovery.gov.
III.     Determined whether the IRS had established effective controls to identify, record, and
         report Recovery Act expenditures in accordance with OMB guidance.
         A. Obtained and reviewed all guidance issued by the OMB pertaining to procurement of
            goods and services using Recovery Act funds.
         B. Evaluated the procedures for recording Recovery Act obligations, outlays,
            disbursements, and payments made against these funds and reconciled the sum of the
            obligations, expenditures, and disbursements amounts from the Status of Available
            Funds Reports to the Total Obligations and Gross Outlays columns of the Financial
            and Activity Report.




3
  The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the Treasury, in
collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or other fund account. It
is used to describe a particular type of Treasury Fund Symbol that has budget authority. All financial transactions of
the Federal Government are classified by a Treasury Fund Symbol for reporting to the Department of the Treasury
and the OMB.
                                                                                                              Page 5
                    Review of the Internal Revenue Service’s
                  American Recovery and Reinvestment Act Fund
                        Expenditures for Fiscal Year 2011



                                                                Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Evaluator
Mark Anderson, Program Analyst




                                                                      Page 6
                   Review of the Internal Revenue Service’s
                 American Recovery and Reinvestment Act Fund
                       Expenditures for Fiscal Year 2011



                                                                 Appendix III

                         Report Distribution List

Principal Deputy Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                        Page 7
       Review of the Internal Revenue Service’s
     American Recovery and Reinvestment Act Fund
           Expenditures for Fiscal Year 2011



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 8
